-                           CLOSEOUT FOR M93030017




                                                         &&
        This case was brought to the attention of OIG on Febru
         an Assistant Vice President at the University
                                                                     19, 1993, by MS.-
                                                                        The Assistant Vice
President informed OIG that the institution had completed an inquiry into allegations against
the subject,-.~r                        of misrepresenting information about the publication
status of manuscripts in proposals and other documents. The subject is a faculty member in
the Department of Chemistry at the institution. The Assistant Vice President said that the
inquiry had found substance to the allegations and the institution was proceeding with an
investigation.

          After reviewing the institution's investigation report, OIG concluded that further
information was required and initiated its own investigation. OIG's investigation report and
NSF's Deputy Director's l e t t e r reflecting her decision constitute the closeout
for this case.




cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                    Page 1 of 1
                           NATIONAL SCIENCE FOUNDATIV~
                               4201 WILSON BOULEVARD
                              ARLINGTON, VIRGINIA 22230




  O f f ICE OF THE
 DEPUTY DIRECTOR

CERTIFIED MAIL - - RETURN RECEIPT REQUESTED




                Re:   Notice of Misconduct Determination
Dear Professor        0
The National Science Foundation's Office of Inspector General (OIG)
issued an Investigation Report on April 10, 1995 in which it found
that you submitted two proposals to the National Science Foundation
(NSF) which misrepresented the status of your research manuscripts.
You stated they were submitted for publication, when they actually
had not vet been submitted or had been reiected for ~ublication.




Misconduct and Proposed Action
Under NSF1s misconduct in science and engineering regulations,
"misconduct" is defined to include fabrication, falsification,
plagiarism, or other serious deviations from accepted practices in
proposing, carrying out or reporting results from activities funded
by NSF . . . "     45 CFR §689.1(a).     Your submission of false
statements to NSF about the status of your manuscripts constitutes
falsification and is a serious deviation from accepted practices.
We, therefore, conclude that you committed misconduct in science.
In your response to the draft OIG Investigation Report, you admit
that your anticipatory reporting of papers was improper and
careless.    While you acknowledge that your anticipation of
manuscript submission could appear to have been deliberate, you
deny that you intended to deceive or misrepresent the status of
your publications.
The administrative record indicates to the contrary.       In your
proposal to NSF, you cited one manuscript as "submitted" after it
was rejected by a journal. Almost two years elapsed before you
resubmitted the manuscript for publication to a different journal.
You cited a second manuscript as "submittednfor over a year before
its submission, and a third manuscript as "submittednmonths prior
to its submission. You also misrepresented the publication status
of your manuscripts in proposals to the Department of Energy, a
private Foundation, and two funding entities within the University
              The misrepresentations also appeared in a University
            -Department           brochure, a final report on an
awar   rom a state research fund, and in other documents submitted
to the University of           This pattern of misrepresentation to
a number of sources demonstrates a deliberate and conscious effort
to create a false impression of the status of your manuscripts.
In further defense of your actions, you claim that your incorrect
citations had no bearing on the review of your NSF proposals
because they did not misrepresent the success of your research
approach. The administrative record, however, establishes that
your false statements about your publication track record were
considered by the reviewers of your MRI proposal.
NSF's regulations establish three categories of actions (Group I,
I1 and 111) that can be taken in response to a finding of
misconduct. 45 CFR 5689.2(a). Group I actions include issuing a
letter of reprimand; conditioning awards on prior approval of
particular activities from NSF; and requiring certification on the
accuracy of reports or assurances of compliance with particular
requirements.     45 CFR 5689.2(a)(1).  Group I1 actions include
restrictions on designated activities or expenditures and'special
reviews of requests for funding. 45 CFR 5689.2(a)(2). Group I11
actions include suspension or termination of awards; debarment or
suspension from participation in NSF programs, and prohibitions on
participation as NSF reviewers, advisors, or consultants. 45 CFR
S689.2 (a)( 3 ) .
In deciding what response is appropriate, NSF considered the
seriousness of the misconduct; whether it was deliberate or
careless; whether it was as isolated event or part of a pattern;
and whether the misconduct a£fects only certain funding requests or
has implications for any application for funding involving the
subject of the misconduct finding. See 45 CFR 5689.2(b).
As stated above, the record demonstrates that you engaged in a
pattern of misrepresenting the status of your publications. I,
therefore, will require that if you are a principal investigator or
co-principal investigator on any proposal submitted to NSF prior to
July 20, 1998, you must submit to the Assistant Inspector General
for Oversight, Office of Inspector General, National Science
Foundation, 4201 Wilson Boulevard, Arlington, Virginia 22230, a
copy of each such proposal, together with your separate written
certification indicating that to the best of your knowledge, your
proposal does not contain anything that violates NSF1s Misconduct
in Science and Engineering regulations. In addition, you must
submit a written assurance from your department chairperson
indicating that, to the best of his or her knowledge, the proposal
does not contain any false representations about the status of any
manuscripts authored by you.
Procedures Governins Ameals
Under NSF1s regulations, you have 30 days after receipt of this
letter to submit an appeal of this decision, in writing, to the
Director of the Foundation. 45 CFR 5689.9(a). Any appeal should
be addressed to the Director of the National Science Foundation,
4201 Wilson Boulevard, Arlington, Virginia       22230.   For your
information we are attaching a coy of the applicable regulations
and of OIG' s investigative report. If you have any questions about
the foregoing, please call Lawrence Rudolph, General Counsel, at
(703) 306-1060.




                             Deputy Director


Attachments ( 2 )
     Misconduct in Science Regulations
     ~nvestigativeReport
                   CONFIDENTIAL


   NSF OIG INVESTIGATION
                     REPORT

                 OIG Case Number M93030017




This document is lent to you FOR OFFICIAL USE ONLY. It remains the
property of the Office of Inspector General. It may not be reproduced. It
may be disclosed outside NSF only by the Inspector General, pursuant to the
Freedom of Information and Privacy Acts, 5 U. S.C. $8 552, 552a.
         REPORT OF INVESTIGATION INTO AN AJLEGATION OF
                     MISCONDUCT IN SCIENCE

                                          SUMMARY
        The Office of Inspector General (OIG) has concluded that-.~r
(the subject) of the University o-(hte                    institution) misrepresented the status of
manuscripts for three scientific papers in seven proposals to various funding entities including
two submitted to NSF, one of which received funding for three years and is currently active.
The misrepresentations that appeared in two proposals submitted to NSF also appeared in one
proposal submitted to another federal agency, one to a private foundation, and three proposals
to two funding entities within his own institution. They also appeared in a d e p e n t
brochure, a fmal report on an award from a state research fund, and in materials submitted to
his institution for his annual review. OIG concluded that the subject exhibited a pattern of
misrepresentation. These conclusions are based on investigations performed by the institution
and OIG. OIG recommends that NSF find that the subject committed misconduct in science and
take the following actions as a final disposition in this case. NSF should send the subject a letter
of reprimand from the NSF Deputy Director. NSF should inform the subject that NSF has made
a finding of misconduct in science and that when proposds~'aresubmitted by the subject or on
his behalf to NSF, he is required to submit certificatibns to OIG that, to the best of his
knowledge, they contain nothing that violates NSF's Misconduct in Science and Engineering
regulation. Further, he is required to ensure that his department chairperson submits an
assurance to OIG that, to the best of that person's knowledge, the subject's proposal does not
contain any false representations about the status of manuscripts. NSF should inform the subject
that the certification and assurance actions are in effect until five years have elapsed from the
final disposition of this case.

                                       BACKGROUND
                                                t) is a recently tenured professor in the department
                                              he i n s t i t u t i o n ) , 1n early 1993, the
institution informed us that it had concluded that there was sufficient substance to the allegations
that the subject misrepresented the status of research manuscripts as submitted or in          when
they were not, to proceed with an investigation and provided us with its inquiry report (reference
1). The institution told us that one of the documents containing the misrepresentations was an
NSF Minority Research Initiation award (the MRI award)'. This NSF award is currently in its
last year of funding.
       Consistent with NSF's position that "awardee institutions bear primary responsibility for
prevention and detection of misconduct" (45 C.F.R. 5689.3 (a)), we deferred our inquiry and
any possible investigation until the efforts at the institution were concluded.

        In August 1993 the institution provided us with a copy of its investigation report. We
reviewed the report and concluded that it was neither accurate nor complete and asked the
institution to provide additional documents and explanations. In November 1993, the institution
forwarded a revised investigation report to us (the revised report?, at Tab A).

                                                                         bject to NSF and the
                                                                        (the private foundation),
                                                                          's research fund), the
                                                                             ula vitae and other
                                                                              reviews and for a
brochure describing his department's faculty and their research. It also interviewed the subject
and his department chairman. The committee concluded that the subject's extensive
misrepresentations of the status of three manuscripts in these documents as submitted for
publication or as in press, when in actuality they had not been, constituted misconduct in
science.
         We reviewed the materials submitted by the institution and concluded that both the final
investigation report and its revision were incomplete, and we therefore opened our own
investigation.


                          INSTITUTION'S INVESTIGATION
        In April 1993, the institution convened a 3-member investigating committee with
expertise in geosciences, biochemistry and cell biology, and biology. One member was on the
faculty at another institution. The investigating committee members had experience submitting
proposals to, and receiving support from, NSF.

       In reviewing the subject's past proposals the committee uncovered misrepresentations
about the status of three of the PI'S manuscripts (herein referred to as manuscripts 1, 2, and 3;
see Appendix 2 for a description of each manuscript) in four proposals variously submitted to
NSF (the MRI award), another federal agency, a private foundation, and the institution's
research fund. It also found these same misrepresentations in a final report for a state research

                     -   -   -



    2
        The revised report contained a voluminous set of appendices. Much of the material in
the appendices is not directly relevant to the case; i.e., full proposals are reproduced rather than
just the relevant pages. Similarly, a copious amount of material was received in response to our
further requests for clarification. Only the directly relevant materials have been attached to this
report.
fund award and in materials the subject had submitted as part of the annual performance review
at the institution and for a departmental brochure. In the departmental brochure, the subject
falsely claimed that two of the manuscripts were in press when they had not even been submitted
to a journal for review. In other documents, the subject falsely stated that the cited manuscripts
had been submitted to a particular scientific journal when they had not been submitted to any
journal.

         In a May 1993 interview (reference 6) with the investigating committee the subject said
that he had made an "honest technical error" and that there was "no attempt at
misrepresentation". He said that the long lead times (6-9 months) in proposal review "impacted
his approach" and he cited manuscripts as submitted when they were not because he had
anticipated their immediate submission. He said he was unaware that he could update
information in a proposal-such as informing the program officer that a manuscript listed as "in
preparation" had been submitted to a journal-after the proposal had been submitted to the
agency. He acknowledged that when manuscript 1 was rejected with a suggestion by the editor
that it be resubmitted as a full paper, it was not accompanied by a commitment from the journal
that the paper would ever be published. He said that he had accumtely cited his manuscripts as
"in preparation" in his October 1992 CV submitted to the personnel committee because his CV
was for immediate review. The subject made statements similar to those above in May and June
1993 memos (references 5 and 9 respectively) concerning the committee's efforts and in his
interview with the inquiry committee (reference 2). In a second May 1993 memo (reference 8)
he said he could provide the committee with the data in the manuscripts in question to
demonstrate that "it ha[d] not changed" to show that the misrepresentations .''in no way
misrepresented the work already accomplished or change[d] the data reported" (reference 9).

       The committee's interview with the subject's department chairman (reference 7)
confirmed information the chairman had told the inquiry committee (reference 3). In the inquiry
he said that he understood "submitted" to mean "in the mailbox." In a written commentary he
said "submitted" meant:

        the manuscript had been mailed to the editor or the journal. . . . m h i s defrntion
        is very clear for >90 % of the time, but the proper percentage is probably more
    .   like 99.X% of the time. I don't believe there is any ambiguity at the beginning
        of the review process, the manuscript was either mailed or it was not."

He reiterated his "in the mailbox" defrniion for the investigating committee. He said that there
might be "some slippage" of a PI'S knowledge about the status of a multiple-author paper when
the PI was not the submitting author; however,

        "that shouldn't exceed about 1month; the specific case referenced was aslippage
        of 4 months which was not a reasonable period."

For a full explanation of this slippage see the discussion of manuscript 3 in Appendix 2.
       The chairman also said that idenwing the long lead time associated with proposal
review, as a reason for falsely stating the status of a manuscript,

       "was both inappropriate and inaccurate. . . . this 6-9 month lag metween proposal
       submission and review] argument was preposterous and unreasonable and that [the
       chairman] had never used this approach nor did he know of anyone who did."

He told the inquiry committee that 6 other chemistry faculty members also thought "submitted"        '

meant "in the mailbox."

       After receiving testimony from both the subject and his chairman and reviewing four
proposals and other documents submitted by the subject, the investigating committee's June 1993
fmal report stated:

       "Prior to 1991, there was no evidence of erroneous citing of references or
       publications.

       "Beginning with the department review in 1991, manuscripts are cited as
       submitted or in press that were not actually submitted or in press at the time. . . .

       "Subsequently in [four] proposals, papers . . . are listed as submitted that had not
       been sent to a journal or had been rejected by a journal. The most egregious of
       these erroneous citations is in the NSF [MRI] proposal where the manuscripts are
       listed as submitted in the section entitled "Results from NSF Planning Grant."
       Since this section directly cites publications that have arisen from previous NSF
       funding, the indication that these papers have been submitted could in fact be
       considered as an important factor in the review of the           award] pr~posal."~

The committee found that manuscript 1 had not been resubmitted and "appear[ed] to remain in
limbo" and that manuscript 2 was found, as late as October 1992, to exist only as a "partial frrst
draft." It was submitted in February 1993, well after the submission of both the proposal
resulting in the MRI award and the CVs to the institution's personnel committee containing false
citations. The committee concluded that the subject was "under signifkant pressure from the
chemistry department to increase his research productivity and his research support . . . and
[this] may have contributed to [the subject's] choices to cite falsely these papers as submitted
or in press. "




Research Initiation P
                                                                   " The subject was the sole PI.
        As explained in the November 1993 revised report, the pressure from the department

        built over a number of years, as' reflected in the Department reviews       . . . and
        increased over the period preceding the incidents in question. . .



                   Based on the evidence, it is straight-forward to establish that papers were
        falsely cited . . . the papers were cited as "submitted" (grant proposals) or "in
        press" (Departmental brochure), when in fact they had not been submitted. It is
        clear that [the subject] was under increasing pressure from his Department to
        perform . . . and therefore the motivation would be strong for the appearance of
        completion where none actually existed. However, premeditated intent to deceive
        is difficult to establish and is emphatically denied by [the subject], both in written
        documents and in his interview. The Committee determined that the allegations
        of erroneous citation were entirely substantiated by evidence, but whether [the
        subject] cited these papers with the intent to deceive was less easily discerned
        from the physical evidence.             The Committee considered carefully the
        circumstances in which [the subject] was operating, including the pressure from
        the Department. . . . However, [the subject] did not cite his publications
        erroneously in providing information for his Departmental reviews[41.. . . Given
        the explanation that he believed that the papers would be submittedtin press
        before the relevant use of the documents in which the papers were erroneously
        cited, the Committee concluded that [the subject] should be given the benekt of
        the doubt with regard to the intent to deceive. Wphasis in original.]

        The committee reduced the severity of its recommended sanctions because it concluded
it could not establish a culpable level of intent. It said:

        It was not possible for the Committee to establish the intent to deceive, although
        the pressure under which [the subject] was operating almost certainly contributed
        to his activities. The inability to establish intent indicates that sanctions should
        be based entirely upon the violation and should be appropriate to the violation.

        The committee decided that "misconduct as defined in University policy did occur in the
false citation of papers as 'submitted' or 'in press' that were not actually submitted." Under
the institution's policy on handling allegations of misconduct in science "the Committee's
findings are binding upon the institution subject to appeal by the respondent."




    4
        As discussed below, we learned that this was incorrect and that there were other instances
of false citation not discovered by the Committee.
        It recommended that the subject "be sent a letter of censure," that it "become part of his
permanent file and should be transmitted to NSF and other appropriate agencies," and finally
that the subject's internal and external submissions listing publications "should be monitored for
a period of 3 years to ensure no further inaccurate citations of his work."

                                  INSTITUTION'S ACIIONS

       Shortly after receiving a copy of the final investigation report, the subject sent the vice
president for academic affairs a memo (reference 9) protesting the committee's "fmdings,
motivations, and conclusions since they [welre centrally based on a misconception as to the
relevance of 'increasing pressure from the Department to perform'."                He said his
misrepresentations were honest errors and that the NSF Planning Grant was for a small sum of
money and "anyone reviewing the proposal [resulting in the MRI award]" would know the work
was not done on the NSF Planning Grant and thus his misrepresentations "could not have
influenced their decision. "

He requested the vice president's "reconsideration of this issue" and concluded:

       While I do not believe I have deliberately misrepresented any of my work, I
       recognize that my carelessness appears to have been deliberate. I acknowledge
       that I should have asked more questions rather than making the assumptions I did
       [about the dates the manuscripts would be submitted for publication]. I regret
       these errors, and will make every effort I can to be more careful and
       conscientious in my citations. I have already learned this lesson and do not
       warrant a letter of censure in my permanent fie. If you decide to reprimand me
       and place a letter of admonishment, I believe this would be a more appropriate
       form of action. This could be coupled with an agreement that I will not submit
       any proposal that is not countersigned by my chair and the [Office of Sponsored
       Programs] director. In addition, I will agree to attend a workshop or seminar on
       research proposals. . . . However, I do not believe my actions warrant any
       censure or harsh punishment.

        The vice president did not find the subject's arguments persuasive and, in a June 1993
letter (at Tab B), concluded that the subject had committed misconduct in science and that he
warranted a letter of censure. He said:

                I am struck by one important fact. That is, there is no dispute as to
       whether certain alleged acts actually occurred. Both committees have concluded
       that in research proposals which you submitted to funding agencies you listed one
       or more publications as having been submitted for ~ublicationwhen in truth they
       were not. mphasis in original.]
                    . . . I . , . have concluded that the Investigation Committee chose their
            words correctly as "censure" is a judgment involving condemnation, an official
            reprimand, or stem condemnation, whereas, "admonishment" indicates duty or
            obligation, expresses warning or disapproval in a gentle, earnest or solicitous
            manner.

    The vice president stated that this "letter of censure" would become part of the subject's
    permanent file. He informed the subject that:

           all written materials such as research proposals, manuscripts submitted to research
           journals, reports to granting- agencies or other published materials to be used

                           d
                                            -



           within or without the university] must be reviewed by the Chairman of the
           Department of                for the three year period commencing with the date of
           this letter to assure that all papers which are listed as submitted or in press are
           accurately cited.

            The subject did not appeal this decision. It currently stands and a letter was placed in
    his personnel file.'


      OIG'S REVIEW OF THE INS-ON'S                            INVESI"I'GATI0N REPORT
            NSF's Misconduct in Science and Engineering regulation states that "after m i v i n g a
    report from an external investigation by an awardee institution . . . OIG will assess the accuracy
    and completeness of the report and whether the investigating entity followed usual and
    reasonable procedures. It will either recommend adoption of the findings in whole or in part
    or . . . initiate a new investigation" (45 C.F.R.§689.8(a)).

           We found that the institution's investigation report was incomplete. Ln response to our
    request for additional information and documentation, the institution submitted a revised report
    which was accompanied by an extensive set of appendices. We found that the revised report was
    also missing important information and explanations. We also found that the committee had not



             We learned that the institution's June 1992 letter of censure was not immediately placed
    in the subject's "permanent file." Instead, the letter was retained in a separate file pending the
    institution's tenure decision on the subject. According to institution officials, the finding of
    misconduct and letter of censure were kept from the tenure committee so that the tenure decision
.   would not be influenced by the finding. The subject told us that he was "awarded tenure this
    year--even with this cloud over my head" (reference 9), and in his response to our investigation
    report (Tab D) said that selected institutional officials who participated in the tenure review
    process were aware of the allegations. However, only after the subject was granted tenure was
    the letter of censure placed in his personnel file.
reviewed several funding submissions by the subject and that it had confused several of the
subject's manuscripts.

        We concluded that the materials submitted by the institution did not constitute a thorough,
complete investigation into the allegations. We concluded that additional investigation by our
office into these allegations was required and requested further information from the institution.


                                 OIG'S lNVE!3TIGATION
OUR REVIEW OF THE SUBJECT'S SUBMISSIONS

        Our initial review of the NSF proposals reviewed by the investigating committee
confiied that the subject had falsely cited manuscripts as "submitted" that were not. This
information prompted us to review all the proposals the subject had submitted to NSF to
determine the extent of the misrepresentations in NSF proposals. We also reviewed the
materials forwarded by the institution at our request including proposals submitted to the other
federal agency, to the institution's research fund and its internal institute, to a state funded
research entity, and to a private foundation; CVs and other materials submitted by the subject
for his annual performance reviews; and the departmental brochure. We conducted this broad
review to determine if these documents revealed a pattern of misrepresentation. We uncovered
a total of 40 misrepresentations about the declared status of three of the subject's manuscripts
in documents submitted to NSF, to other funding entities, and to the institution's personnel
review committee. We will discuss the findings of the investigation into the misrepresentations
in the NSF proposals and the findings with regard to the pattern of misrepresentation together.

The Manuscripts the Subject Misrepmented

        Appendix 1 contains a list of the three manuscripts that are the focus of this investigation
and a current list of the subject's published papers. Manuscripts 1 and 2 describe research in
the subject's laboratory at the institution. Manuscript 3 describes part of the subject's
postdoctoral research. Manuscript 3 appeared in print prior to the inquiry into these allegations
while manuscripts 1 and 2 were substantially revised and modified during the review process at
the journal and appeared in print after the subject had been sanctioned by the institution.

        Appendix 2 contains a detailed description of the three manuscripts, which identifies the
presence of false citations to the manuscripts in the bibliography, CV, or prior support statement
in a funding application. Citations to these manuscripts found in the subject's annual review
submission (containing a CV, Publications List, and Merit Review Form) to the institution are
listed.

        For manuscript 1, we found a total of 16 false citations in the documents reviewed.
Thirteen of these were in funding applications or final reports, two were in materials submitted
to the institution's personnel committee, and one was in the departmental brochure. Of the 13
false statements, 5 were found in the two NSF proposals. The subject submitted this manuscript
to a journal over a year and a half after the first false citation to it appeared in a submission by
the subject.

        For manuscript 2, a total of 15 false citations were found in the, documents reviewed.
Twelve of these were infunding submissions or fmal reports, two were in materials submitted
to the institution's personnel committee, and one was in the departmental brochure. Of the 12
funding-related false statements, 5 were found in the NSF proposals. The manuscript was
submitted to a journal about a year after the first false citation to it appeared in a submission by
the subject.

        For manuscript 3 we found a total of 9 false citations in the documents reviewed. Seven
of these were in funding submissions and two were in the materials submitted to the institution's
personnel committee. Of the 7 funding-related false citations, 3 of them appeared in the two
proposals to NSF. This manuscript was f ~ ssubmitted
                                                  t         to a scientific journal four months after
it was first cited as submitted to a journal. Unlike the first two manuscripts, the subject's thesis
advisor, not the subject, was responsible for the submission of this document to the journal.
Although it is possible that the subject might, for brief periods of time, not have been fully
apprised of its status, he acknowledged that three of the four proposals containing
misrepresentations were submitted after he had learned that the manuscript had not been
submitted (reference 4). He corrected the citations in those three proposals to reflect accurately
the changes in authorship and title, but failed to accurately state the status of the manuscript, i.e.
to be submitted.

       All told, between October 1991 and December 1992 the subject submitted documents
containing 40 false citations to manuscripts as submitted when they were not, and, in fact, two
of these manuscripts existed only as partial drafts. Of the 40 false citations, we found 13 in
submissions to NSF. A chronological review of the various documents in which these
manuscripts are mentioned revealed that following the first submission of a document containing
a false citation, new authors were added to two of the manuscripts (2 and 3), a title was
~ i ~ c a n tchanged
               ly      (3), and the name of the journal to which the manuscript was submitted
changed (1 and 2) in later false citations. These changes reflect real modifications to the draft
manuscripts, but the manuscripts remained unsubmitted.

       Appendix 3 contains a tabular cross-reference of the three manuscripts to the subject's
funding applications a d fmal reports and to the departmental brochure, as well as to his
submissions to the institution's personnel committee.

Misrepmsentations in the Proposals

        We reviewed a total of 13 proposal submissions by the subject, including five NSF
proposals, for false citations to the subject's manuscripts. Appendix 4 is a chronological list of
these proposals, and provides the date each was submitted, whether it was declined or supported,
and, for the funded proposals, the duration and funded amount of the award. The table
identifies those proposals, or the supporting documentation accompanying them and the final
reports, that contain one or more citations that falsely describe the manuscripts as submitted to
journals. Of the 13 proposals, 8, including two NSF proposals and one to another federal
agency, contained misrepresentations. Six of the eight, including one NSF proposal (the MRI
award) were funded. One of the funded proposals contained misrepresentations in the final
report not the body of the pr~posal.~   Of the unfunded proposals, one was withdrawn because
it was duplicative of the NSF MRI proposal which had been funded, and one (the other NSF
proposal) was declined.

       The total current and out-years support for the 5 funded proposals containing
misrepresentations totalled $274,613;      of which was the MRI award from NSF.~

        In the two NSF proposals, the misrepresentations appear variously in the bibliography
for the proposed work, in the CV, and in the statement of work accomplished with prior NSF
suppod'. The proposal to the other federal agency contained misrepresentations in the
submitted CV and the bibliography.

       CVs accompanying the April 1992 submissions to both the institution's research fund and
an internal organization at the institution contained misrepresentations about manuscripts 1-3.
The CV in the November 1992 submission to the institution's internal institute contained a
misrepresentation about manuscript 1. In this CV, the subject had corrected the citation for
manuscript 2.

        The November 1992 final report for the subject's 1989 state research fund ghnt contains
a table entitled "publication activities associated with th[is] project." The table is broken into
columns headed "planned," "in progress, " "submitted," "accepted," or "published" and PIS are
asked to indicate the status of relevant manuscripts. The subject falsely indicated that
manuscripts 1 and 2 were "submitted" in this table.



       As explained below, the subject began falsifying his citations in October 1991,
approximately 27 months after this proposal was submitted.

       The total sum excludes the value of the                        award where we found
misrepresentations in the final report.

       The NSF MRI award is a 3-year, continuing grant. This award is currently in its third
year and expires on           1995. Its current year's funding is           The frrst and second
years' funding totaled

       The prior support statements accompanying both NSF proposals that contain
misrepresentations about the status of the manuscripts identify a closed NSF Planning Grant as
support for some of the work reported in these manuscripts. The NSF Planning Grant was a
6-month award that provided             in support.
        Thus, our review of the proposals showed that the subject misrepresented the status of
his manuscripts in three separately created sets of documents: CVs (those submitted with the -
NSF proposals, the other federal agency proposal, and the April 1992 proposals to the
institution's research fund and its internal institute were identical); bibliographies (those present
in one NSF proposal and the other federal agency proposal were identical); and prior support
statements (those submitted with the two NSF proposals were very similar).

        Our review of the citations in the subject's funding submissions revealed that the subject
was familiar with a variety of terms used to describe the exact status of a manuscript, from its
drafting to its submission to a journal and its f'mal publication. As early as 1983 the subject was
a co-author on papers where terms such as "to be published," "submitted," "in press," and
 "unpublished" were used to describe the status of reference material. In June 1991 the subject's
final report for a 1988private foundation award correctly cited manuscript 1 as "in preparation."
Terms such as "in press, " "in preparation," "unpublished," "to be submitted," and "to be
published" are used to describe references found in the subject's paper resulting from manuscript
3 (which was submitted in February 1992 and therefore contemporaneous with the proposals
submitted containing the false citations). The CVs with the false citations consistently contain
at least one manuscript listed as "in preparation." These examples show that the subject had
used, and had been associated with publications which had used, a variety of terms to describe
the evolution of a manuscript from the rough draft to its submitted and published forms. We
concluded that the subject's citation practices with regard to the three manuscripts described in
this investigation report are a change from his previous practice.

Mhxpxesentations in the Departmental Bmhure

       In the departmental brochure, fust drafted in June and finalized in December 1992, the
three manuscripts are listed as "in press." At the time the brochure was finalized, two of the
manuscripts had yet to be submitted to a journal and only one had been published. This
bmhure was intended to be widely distributed to potential graduate students and visitors to the
department, and for other public relations efforts.

The Subject's Submissions for Mandatory Annual Review

        In each of the six years before the mandatory tenure decision and as part of the review
process, the tenure-track faculty at this institution are required to submit a Curriculum Vitae,
a Publications List, and a completed Merit Review Form. Our review of the materials covered
the five years prior to the investigation and included both the citations to manuscripts in the
subject's submitted materials and the written comments by the personnel committee. The details
of the false citations in the subject's materials submitted for his annual review and the p e r s o ~ e l
committee's comments are found in Appendices 5 and 6 respectively.

       Materials that the subject submitted for his fust (1988), second (1989), and third (1990)
years' reviews did not contain any misrepresentations. Terms such as "in preparation," and
"fust d& prepared" are used. In the, fourth (1991)' and f a h (1992) years' materials, false
citations to manuscripts as "submitted" appeared variously in the CV and Publications List. The
sixth year CV submitted with his November 1993 tenure package (almost one year after the
initiation of the misconduct investigation) correctly cites manuscripts 3 as published, manuscript
2 as "in press" and manuscript 1 as "recommended for publication by referee" (reference 23).


       The comments in these five annual reviews (1988-1992) reveal a progressively increasing
pressure on the subject both to publish papers based on his work at the institution and to submit
proposals to federal agencies. The committee linked the subject's ability to dramatically increase
the number of his publications and federal research awards and any positive recommendation the
committee might make for tenure in his sixth year.

        In the third and fourth year reviews, the committee gave the subject specific numerical
targets for publications and research grants he was to achieve. In the third year review the
committee said it expected "a minimum of [8-101 manuscripts in press or in print by the time
p e was] evaluated for tenure" (in two years). It strongly encouraged the subject to obtain
federal support for his research, specifically identifying NSF as an agency to which he should
send a proposal.

        At the end of the fourth year review cycle (October 1991) the subject had, in actuality,
not submitted any manuscripts for pubfication, but falsely claimed one (3) as "submitted" on the
CV and Publications List he provided the committee. The committee "was extremely
disappointed that me] did not follow the recommendations communicated to     w]   after the third
year review. It "note[d] the recent manuscript that [the subject] submitted . . . but feels that
ms] publication record over the last three and a half years is well below expectation. m e
subject] must realize time is running short. A major effort is needed in obtaining research
support and getting significant publications in print." He was instructed to "submit a[n] NSF
proposal plus one or more other proposals before the end of this calendar year" (two months
later) and was told to make "very substantial improvements in ms] publication record and
funding efforts by next September. "

       In the year following this review the subject submitted six proposals which, in total,
contained 29 false statements about the status of three manuscripts. He received funding for four
of the six proposals. He also submitted a draft of the departmental brochure which contained
two false statements about the status of the manuscripts.

      In the declined NSF proposal (reference 14) the subject clearly conveyed the pressure he
was under:

       . . . this is the point at which my career would benefit most from such an award
       since I am up for internal review in Fall '92. This is to determine the potential
       for tenure and the research progress up to that point will weigh heavily in that
       decision. The mSF award] would provide the opportunity to establish a more
        broadly based and vigorous research program which would have a positive impact
        on this review.

In a note referring to his concurrently submitted MRI award proposal he said:

        A positive review for both the proposal herein and the MRI proposal would
       greatly benefit the research program at a critical stage. However, if a choice
       must be made between one of these awards, assuming a positive review for both,
       the MRI will be preferred. mphasis in the original.]

        For his fifth year review, the subject submitted two CVs to the personnel committee.
In the first CV (submitted in September 1992) the subject falsely claimed manuscripts 1 and 2
as "submitted." He changed that to "in preparation" in a revised CV submitted one month
later-shortly before the institution received the allegation of misconduct.

        In its fifth year review the committee "commended" the subject for obtaining the NSF
and private foundation support. It said that he had "made reasonable progress towards
establishing a working research group at the [institution] in terns of building [his] laboratory
and in obtaining funding. It continued its "principal concern . . . [wals [his] research
productivity. . . . To date, however, no papers based on work done at [this institution] have
been published or accepted for publication. . . . The committee in the strongest possible terms,
encourages you to get papers that are 'in preparation' submitted to appropriate journals in the
next few months. "

       In his sixth year, the subject was reviewed for tenure and, on the basis of that review,
the dean informed the subject in a December 13, 1993, memo that he was recommending a
terminal contract. The dean cited the subject's low publication rate, the timing of his
manuscript submissions (five in the year preceding the mandatory decision), and the mixed
outside reviews as factors in his decision. The subject appealed the decision and was granted
tenure. In his January 1994 recommendation letter, the dean said,

       My concerns are those expressed by several of the reviewers regarding his
       proauctivity and a demonstrated ability to broaden the sphere of his research.
       For example, the material sent out for external review contained two papers in
       press and three papers submitted for publications . . . . I have never seen a
       tenure case where the individual under review did not have one paper in print on
       work done at the tenuring institution at the mandatory review time. The question
       then is whether his recent research productivity (five papers published in one
       year) will be sustained over the long term or does it represent a "spike" in
       research activity driven by the pressure of the tenure decision.

       We agree with the institution's investigating committee's conclusion that "it is clear that
[the subject] was under increasing pressure from his Department to perform."
       When we compared the various CVs the subject had submitted to the personnel
committee, we found that only one (the September 1992 CV) was identical to that found in the
two NSF proposals. The remainder were different. We found that the Publications Lists
submitted with the subject's fourth and fifth years' reviews were prepared separately from the
CVs and contained misrepresentations. The fourth year's list falsely claimed that manuscript
3 had been submitted, and the fifth year's list falsely claimed manuscripts 1 and 2 as submitted.
Unlike the amended CV submitted for the fifth year review, that year's Publication List was not
corrected.


NSF'S EXPECTATIONS ABOUT ACCURACY IN PROPOSALS

       The GRESE states that the National Science Board (NSB) established four criteria for the
review of proposals "in order to provide for the fair and equitable selection of the most
meritorious research projects for support." One of these criteria is "Research Performance
Competence." The Grants for Research and Education in Science and Engineering (GRESE,
90-77), in force when the subject's proposal was submitted, describes this as

       relat[ing] to the capabilities of the investigator(s), the technical soundness of the
       proposed approach . . . . .   .




       Criterion (I), performance competence, is essential to the evaluation of the
       quality of every proposal. It covers the investigator's record of past research
       accomplishments, including, where significant, communications of findings and
       sharing of data and other research products.

The GRESE (90-77) states that:

               NSF expects strict adherence to the rules of proper scholarship and
       attribution, which are at the heart of the organization of research, the
       communication of its results, and the competitive merit review system on the
       basis of which NSF makes awards. The responsibility for proper attribution and
       citation rests with the authors of a research proposal, all parts of which should
       be prepared with equal m e for this concern. Failure to adhere to such standards
       can result in disquaLitication of the proposal. B p h a s i s added.]

This expectation was formalized in the subsequent GRESE (92-89) as a certification signed by
the PI stating that:

       the statements herein (excluding scientific hypotheses and scientific opinions) are
       true and complete . . . .
The certification   carries the warning:

        I understand that the willful provision of false information or concealing a
        material fact in this proposal or any other communication submitted to NSF is a
        criminal offense (U.S. Code, Title 18, Section 1001).


The I k k e p ~ o n in
                     s the MRI Award Proposal

        The subject cited manuscripts 1 and 2 as "submitted" in the prior support statement
entitled "Results from NSF Planning Grant . . . ."that accompanied both NSF proposals. The
manuscripts are referred to as "publications acknowledging this award. " Neither manuscript was
submitted before the two NSF proposals were forwarded to NSF. The GRESE states that the
PI is required to list publications resulting from an award and should provide a summary of the
completed work, and the GRESE informs the PI that "reviewers will be asked to comment on
he quality of the prior work described in this section of the proposal. " The misrepresentations
in the prior support statements and those in the CVs accompanying these proposals projected a
more successful image of the subject's research program to NSF reviewers and program officers
than was justified.   In 1990 the subject received an early indication that publications were an
important part of the evaluation process. One of the three criteria for evaluation of the subject's
1990 NSF proposal was the "nominee's potential for continued professional growth as a research
scientist or engineer." One reviewer commented, "excellent potential but pub[lication]s could
be stronger. "

       We examined the reviewers' comments on the MRI award proposal to determine if an
evaluation of the subject's publication .record had entered into their considerations when
recommending this proposal for an award. The following comments were found:

        Reviewer 1: "Good results have come out of the [institution's] laboratory    . . . His past
        research performance has been very good. "

        Reviewer 3: "The PI has demonstrated in his previous work the feasibility of such
        studies. "

        Reviewer 4: "The results from prior NSF support are excellent . . .. In addition, two
        papers on this work have been submitted for publication."

       Reviewer 6: " m e subject] has been at the [institution] for over four years without yet
       publishing any results (2 papers submitted) from work done at the [institution] . . . The
       results of the previous award (NSF Planning Grant . . .) are reasonable, providing they
       are accepted for publication. . . . I would not be so worried about the time lag to get
       meaningful results, if it were evident that there were other research areas or projects
       being developed. This does not appear to be the case. . . . Optimistically, his program
       may be coming around as evidenced by the submission of the two manuscripts. If this
        [is the] case, I would enthusiastically support this proposal, but because of this question
        mark, I can only give this request a very good rating. "

        Thus, four of the six reviewers of this proposal evaluated and commented on the subject's
prior research activity and his publication record. '&o of these reviewers explicitly commented
on the manuscripts that had been falsely cited as submitted. The sixth reviewer's concern about
the subject's low level of productivity directly influenced the rating the reviewer provided. The
program officer noted this concern and, in part, justified his recommendation for an award
despite this reviewer's concerns by citing manuscripts 1 and 2:

        Program Officer's Review Analysis: "The work under the previous NSF funding (an
        MRI Planning Grant) is termed excellent by some referees, since it led to the fxst-ever
        measurement of
                                              [manuscripts 1 and 21 . . .. Reviewer 6 contends
        that the PI has not shown the ability to lead a research group because of his low
        publication record . . . I feel the concerns raised are not major . . . And Reviewer 6's
        concerns about the PI'S low productivity may be too harsh considering the considerable
        effort involved for a young new physical chemist in setting up a laboratory. None of the
        reviewers commented unfavorably on this reported level of productivity. If anything,
        they say that his past performance is good, and that he has shown the ability to carry out
        the proposed research. [The subject] had listed two papers in preparation [manuscripts
    I
        1 and 21 resulting from the previous NSF MRI Planning Grant.

In our view, it is doubtfi.11that the reviewers would have rated the proposal as highly if the
subject had truthfully cited the status of his manuscripts in his proposal and prior support
statement.
                                       -
OIG'S REVIEW OF THE SUBJECT'S DEFENSE DURING THE INSTITUTION'S INQUIRY
AND INVESTIGATION

        During the course of the institution's inquiry and investigation the subject was questioned
several times about the misrepresentations. He variously provided 10 explanations of his
actions. Because the subject had not seen the institution's revised investigation report, as part
of our investigation we forwarded the document to the subject for comment. His August 1994
response (Tab C) to us reiterated some of these reasons. Each is listedrbelow in bold, followed
by our analysis and includes a reference to the source documents. Tab C and references 2-9
contain the source documents where these statements are found. The key sentence(s) in these
document(s) is(are) highlighted. We found none of these explanations adequate. Many were
irrelevant to an evaluation of the allegations.

1       The source of the allegation was a disgruntled graduate student of his. Because the
        student was unhappy, the subject felt the allegations should be questioned (refefence 2
        and 4). The reason a complainant reports an allegation may put the allegation in context
    but it, on its own, is not a reason to dismiss an allegation. We are unaware of the
    identity of the anonymous complainant, and the identic is irrelevant to our assessment
    of the evidence.

    The i tat ions in the subject's proposals and CVs submitted to the personnel
    committee w m merely honest errors of a technical nabre because he anticipated
    submission of the manuscripts (mferences 2, 4-6, 8). The publication information
    requested on proposals should reflect the current status of the PI'S publication record.
    Anticipatory writing of this kind, whether in the body of the proposal, or the CV, is
    misleading and unacceptable. Some of the misrepresentations about these manuscripts
    extended over a period of a year and a half. It is unbelievable that the subject could
    have, for these lengthy periods of time, honestly believed that manuscripts were about
    to be submitted particularly when some were only partial first drafts.

    The subject did not intend to deceive anyone. His errors were merely "-el7
                                                                                  ..
    careless" (Tab C and refmnces 2,4,6,8,9). The subject cited manuscript 1 as submitted
    after it was declined and returned by the journal. He resubmitted it for publication to
    a different journal almost two years after the fust submission. He cited manuscript 2 as
    submitted for over a year before its submission. Manuscript 3 was cited as submitted
    for two months before its submission. In total, the subject made 40 misrepresentations
    in several independently created documents (CVs, bibliographies, prior support
    statements, Publication Lists, a final report, and a brochure) variously found in
    proposals to the federal and state government, two institutional funds, annual reviews,
    a departmental brochure. In our view, such a broad pattern of misrepresentation to so
    many sources, over a period of a year and a half, can hardly be described as
    "administratively careless." We believe this pattern reflects a conscious-and
    successful~ffortby the subject to misrepresent the status of these manuscripts in order
    to deceive readers into believing the subject was more productive than he was really was.
    Reviewers of the funded proposal were clearly concerned about the status of the subject's
    publications and their concern was mitigated by the false reporting of these manuscripts
    as submitted when they were not.

    The subject's long-term misrepresentations can only be interpreted as intentional
    deceptions designed to create the impression that he was more productive than he actually
    was.

4   Prior to the invedgation the subject had not made a sharp distinction between the terms
    "to be submitted" and "submitted"(references 2, 6) Manuscript 3 was the f m t of the
    three manuscripts submitted to a journal. The subject used the terms "in press,"
    "unpublished," and "to be submitted," in its bibliography. Publications co-authored by
    the subject dating back as far as 1983 use these, and other terms, to indicate the precise
    status of manuscripts in the path from conception to publication. Further, in one
    proposal where misrepresentations were found, the subject used the terms "in press" and
    "in preparation." Such a history using the precise meaning of these terms is inconsistent
    with the subject's claim. His assertion is not credible.

5   The important issue was that the data had not cbanged from that reported in the
    man-        (Tab C and refemces 2,4-6,8,9). The accuracy of data is not an issue in
    this case. The issue is strictly whether the subject misrepresented the status of his
    manuscripts by falsely citing them as submitted when they were not.

6   It is a common practice in the chemistry community to cite m a n e as submitted
    when they are not (references 2,4). Knowingly making false representations to federal
    funding agencies in lieu of communications updating the contents of a proposal is not a
    common practice within the chemistry community or any other component of the broader
    scientific community. Indeed, the chemistry department chairman stated that this was
    -
    not a common practice and told the inquiry committee that six other department faculty
    did not view it as a common practice. It & a common practice for principal investigators
    on NSF proposals to communicate changes in their proposed work, breakthroughs, or
    provide information on new publications to program officers. This information, if
    provided in a timely fashion can become part of the review process.

7   The man*ts          were f i b l y cited as submi&d because of the long lead time in
    reviewing a proposal (references 4-6). The October 1992 CV submitted for his annual
    review properly lists the status of the manwmipts because he h e w the dqmtmental
    review would be immediate in contrast to the long lead time asdated e t h proposal
    review (reference 6, Tab A).          The long lead time for proposal review is not an
    acceptable reason for making false representations. The GRESE clearly explains NSF's
    expectation that PISwill carefully adhere to the rules of scholarship, including attribution
    and citation, in all parts of a proposal submitted to NSF. PIS are expected to provide a
    truthful statement of their publication record and, because of the long lead times, are
    allowed to up-date that information during the review process.

    Furthermore, the subject falsely cited the status of his manuscripts in materials even
    when he knew they did not have a long lead time associated with their review. Materials
    submitted for his 1991 and 1992 annual reviews (Publications Lists and CVs) did contain
    misrepresentations and the subject knew that they were for immediate review by the
    institution's personnel committee. In 1992 the subject resubmitted a CV that correctly
    stated the status of his manuscripts, but he has not explained why the frrst CV submitted
    in 1992 claimed that manuscripts 1 and 2 were submitted when he knew that neither had
    been and manuscript 2 existed only as a partial first draft. Indeed, manuscript 1 was not
    submitted for another year and manuscript 2 for another 5 months. The final report for
    the state grant contained misrepresentations and it also had no lead time associated with
    it.

8   The status of the publications was not important to the mviewers;' what was important
    was the data and "the success of the new approach not the actual experimental data" (Tab
     C and reference 2). In a related assertion the subject said that the      NSF Planning
     Grant was insufficient to carry out a research project, an obvious fact to anyone
     reviewing the MRI proposal, and then#' his m i s q d o n s could not have
     influenced NSP's decision to fund the p r c p d (Tab C and x e f m e 9). The subject's
     statements are refuted by the remarks in the peer reviews he received on his MRI award
     (see above). Further, the parsing of the status of manuscripts in the table in the state
     funding agency's final report shows that the actual status of the documents containing
     data genemted under a grant is important.

     The subject knew from the review comments he had received for both his 1990 NSF
     proposal and his MRI award that reviewers assessed a PI'S publication record and were
     concerned about his research results and publication history (see above).

     With regard to the subject's comments that the Planning Grant funds were insufficient
     to carry out his project, multiple sources of funding frequently contribute support for a
     particular research project. Thus, it would not be "obvious" to reviewers that the
     Planning Grant had not partially supported the subject's project.

9    It was inappropriate for the investigating committee to "build a case" on the inmasing
     pressure applied by the p e r s o ~ ecommittee
                                          l         to publish papers and to submit proposals
     when such pnxme is a "common and htegral part of tenure track positions" (Tab C,
     xeference 9). It is part of the role of an institution and NSF when investigating and
     adjudicating allegations of misconduct to consider any evidence relevant to an
     individual's state of mind. The investigating committee concluded that thk increasing
     pressure to publish preceded, and was correlated with, the subject's actions. We concur
     with that conclusion. Although the pressure to publish is present in all tenure-track
     positions, the subject apparently responded inappropriately by misrepresenting his
     publication record.

     In contrast to the subject's efforts to downplay the influence of the negative comments
     and recommendations of the personnel committee on his attempts to secure outside
     funding the passage in his declined NSF Career Advancement proposal (quoted on page
     12 above, reference 14) clearly conveys the pressure he perceived he was under and his
     understanding that receiving Federal funding would positively influence his upcoming
     personnel review.

10   The misrepresentations in the other federal agency proposal should not be consi-
     because the proposal was withdrawn fmm consideration befoxe the allegations were
     received p ab C, references 4, 9). The subject withdrew the other federal agency
     proposal because his MRI award proposal, a duplicate submission, was funded. It is
     possible that, had it not been withdrawn, the proposal would have been recommended
     for support. The agency had already received three of the requested 6 reviews on this
     proposal. Information submitted on any proposal, whether it is subsequently funded or
        not, is expected to be complete and accurate, and statements in them can be considered
        in misconduct in science inquiries or investigations.

OIG'S CONCLUSION REGARDING MISCONDUCT IN SCIENCE

       NSF defines misconduct in relevant part as "(1) Fabrication, falsification, plagiarism, or
other serious deviation from accepted practices in proposing, carrying out, or reporting results
from activities funded by NSF . . . " (45 C.F.R. §689.1(a)(l)). For NSF to make a fmding of
misconduct in science, a preponderance of the evidence must show: 1) that the subject
committed a bad act associated with NSF activities and 2) that the bad act was committed with
a culpable state of mind (such as willful, knowing, or grossly negligent) (45 C.F.R.§ 689.2(d)).

The Act

        We conclude that a preponderance of the evidence supports the conclusion that the subject
misrepresented the status of his manuscripts 13 times in two proposals submitted to NSF. These
misrepresentations were made in one NSF proposal's bibliography, and in both NSF proposals'
statements of prior support and accompanying CVs. Although the two proposals' CVs are
identical and the statements of prior support are virtually identical, the subject did independently
create the CVs, the statements of prior support, and the bibliography included in these proposals.
The CVs, statements of prior support, and the bibliography each represent separate events where
documents containing false statements were independently created.

       It is clear from the information gathered by the institution's investigating kmmittee that
the subject's practice is not common in his community and is considered a serious breach of the
community's expectation that scientists will accurately state the status of their manuscripts.
Finally, the subject's practice is also in direct conflict with NSF's policy that the PI is
responsible for assuring that a submitted proposal strictly adheres to the "rules of proper
scholarship and attribution," and that "all parts are prepared with equal care for this concern. "

State of Mind

         We believe the evidence shows that the subject responded to pressure for increased
productivity from his personnel review committee by falsrfying the status of three manuscripts
in a number of documents. We found that the third (1990) and fourth (1991) year review
committees were concerned about the subject's failure to publish anything from his research at
the institution. The third year review committee told the subject that he needed to publish 8-10
papers on research performed at the institution within the next 2 years. The fourth year review
committee noted its "extreme disappoint[mentIu with the subject's lack of measurable progress
with regard to publications and grants. It said it was "imperative" that he submit 2-3 federal
grant proposals (among them, the committee specified, must be one to NSF) within two months
and he had to show a "dramatic increase in research productivity over the next few months" to
"receive a . . . review next year that is sufficiently positive for [his] continuation at [the
institution]. " The subject was clearly being warned that his employment would be terminated
if he did not secure research funding and publish papers from research conducted at the
institution.

        Two months after his fourth year review, the subject began submitting proposals to
funding entities (among them, two to NSF and one to another federal agency) that exaggerated
his publication record. The evidence shows that, prior to 1991, the subject was fully able to use
a variety of terms to describe the status of a manuscript. The subject changed his practice of
correctly noting the status of his manuscripts after receiving his fourth year review to a new
practice that gave a falsely positive impression to proposal reviewers, agency program off~cers,
and institutional officials about the status of his manuscripts. This false information positively
influenced both agency and institution decisions: he received funding for 5 of the 7 proposals
that contained misrepresentations. There was a sipifkant improvement in the comments in his
fifth year (1992) review when compared to that from the fourth year (1991). While he had been
told his performance was insufficient to recommend his "continuation" in 1991, in 1992, the
personnel committee "commended" him on his success in securing research funding and urged
him to publish his research results. He was recommend for, and ultimately received tenure.

       The subject provided a variety of explanations for his misrepresentations, none of which
was found to have merit. For example, the subject said he had made the misrepresentations
because of the long lead times associated with proposal evaluation; however, he made
misrepresentations in several documents whose review was not associated with long lead times.

        We found that these false citations were not, as the subject asserted, sirn$le, careless
mistakes. The misrepresentations appeared in materials submitted for a variety .of purposes
including: securing federal, state, or institutional research funding, receiving annual reviews,
reporting the results of research support, and describing his research in a brochure. Within
these documents the misrepresentations appeared variously in CVs, prior support statements,
bibliographies, and publication lists. Each type of document was independently created by the
subject and instead of correcting the initial errors during each document's creation, he continued
to misrepresent the status but corrected the citation for real changes in authorship and title. The
evidence shows that the subject knew the manuscripts he cited as submitted were not yet so
submitted and he chose to falsely cite them as such. In our view, his behavior is consistent with
a conscious-and successful-attempt to deceive both program off~cersand institutional off~cials
by creating a falsely positive impression of his professional success to positively influence
federal agency program managers, proposal reviewers, and institutional off~cials.

        Therefore, we conclude that a preponderance of the evidence supports the fmding that
the subject willfully misrepresented the status of three manuscripts in two submissions to NSF.
The subject's misrepresentations were motivated by the pressure his institution placed on him
to secure federal research support. We conclude that the subject's actions were a serious
deviation from accepted practice, hence misconduct in science.
                        OIG'S RECOMMENDED DISPOSITION
        Under 8 689.2(b) of NSF's misconduct in science and engineering regulation, when
deciding what actions are appropriate when misconduct is found, NSF offcials should consider
the seriousness of the misconduct, the intent with which the subject acted, any evidence of a
pattern, and finally, its relevance to other funding requests or awards involving the institution
or the individual.

       We have concluded that the subject willfully misrepresented the status of his manuscripts
in proposals submitted to NSF, and that this behavior was a serious deviation from the practices
of both the chemistry community and the broader scientific community, and that it violated
NSF's express expectation that proposals are prepared accurately and with the highest level of
scholarship.

         When considering the broader question of a pattern of misrepresentation, we found that
misrepresentations about the status of three manuscripts were found in seven proposal
submissions to five different entities (two to NSF, one to another federal agency, one to the
institution's research fund, and two to an internal institute at the institution), in one final report,
in one departmental brochure, and in various materials for two annual reviews.

       The subject received $274,613 based on the five proposals that contained these
misrepresentations which were funded. Of this sum,                 represented the NSF MRI award.
Additional false citations appeared in the final report for, or prior support statements:concerning,
two awards that total $132,000. One of these awards was the                  NSF Planning Grant.

       These representations occurred over a period of 13 months and are contained in
independently created documents such as bibliographies, prior support statements, lists of
publications, CVs, a final report, and the departmental brochure. During the creation of each
of these documents the subject afforded himself the opportunity to correct the citation for real
changes in authorship and title but persisted in falsely citing the status of the manuscripts.
Cumulatively the subject made 40 misrepresentations about the' status of these manuscripts, 13
of which appear in two separate submissions to NSF.

        We concluded that the subject exhibited a general pattern of repeatedly misrepresenting
the status of manuscript drafts as having been submitted for publication. The evidence for a
pattern is strengthened because it cannot be shown that these repeated misrepresentations were
the result of a single set of errors duplicated exactly in subsequent documents.

        The subject's misrepresentation practice is counter to the expectations of high scholarship
and truth by NSF and the scientific community. We believe the evidence supports a finding that
the subject exhibited a broad pattern of willfully misrepresenting the status of his manuscripts
to enhance the possibility of receiving funding and to elicit positive institutional reviews for
tenure.
        We believe that NSF should take action to protect the government's interest in funding
the most meritorious research. None of the evidence in this case impugns the subject's research
ability nor does it cast doubt upon NSF reviewers' ability to assess accurately the subject's
research skills when they evaluated the subject's MRI proposal. Therefore, we do not believe
that the subject's current MRI award should be terminated. However, we do recommend that
NSF's Deputy Director take the following three actions:

(1)        NSF should send a letter of reprimand to the subject stating that it has concluded
           that he committed a serious deviation from accepted practice and thus misconduct
           in science by misrepresenting the status of his manuscripts in NSF proposals.1°

(2)        NSF should require that, for five years from the date of the frnal disposition of
           this case, when the subject is a principal investigator or co-principal investigator
           on a proposal submitted to NSF for funding, the subject will ensure that his
           department Chaiqerson has signed an assurance stating that, on the basis of the
           Chairperson's reading of the proposal and to the best of the Chairperson's
           knowledge, the proposal does not contain any misrepresentations."

(3)        NSF should require that, for five years from the frnal disposition of this case,
           when the subject is a principal investigator or a co-principal investigator on a
           proposal submitted to NSF for funding, he will certify in writing that he has
           recently reviewed NSF' s Misconduct in Science Regulation (45 C. F.R. 5689),
           that the grant application is free of any misconduct, and that the grant applidtion
           has been reviewed as described above.12

(4)        The Deputy Director should require that the PI send the Chairperson's assurance
           and the PI'S certification to the Assistant Inspector General for Oversight in
           NSF's Office of Inspector General, for retention in that office's confidential frle
           on this matter.


      SUBJECT'S RESPONSE TO THE DRAFT INVESTIGATION REPORT
       We forwarded the draft investigation report to the subject for comment and received a
response from him on April 4, 1995. OIG reviewed the subject's response (Tab D) and
concluded that it did not contain any additional information that altered our conclusions about



      lo
           This is a Group I action, see 8 689.2(a)(l)(i).
      l1   This is a Group II action (see 8 689.2(a)(2)(ii)).
      l2   This is a Group II action (see $ 689.2(a)(2)(ii)).
this case. He did provide some background information about his tenure review process and the
CVs he submitted to the personnel committee which was incorporated into our report.

         The subject attempted to explain why on numerous occasions he comted the authorship
and title of manuscripts without correcting their status. He said, "It is not clear to me what
there is to gain by updating authorship or title but not submission date. . . . mhis supports the
statement that the errors were associated with miscalculations of the submission dates. "
However, the subject corrected the authorship of manuscript 2 over a year before it was
submitted to a journal. Ten months after he first cited it as submitted and 8 months after the
fmt citation in which he changed the authorship, the manuscript existed only as, what the
institution's investigating committee described as, a "partial fust draft" (see discussion on page
4). The institution's investigation committee stated that the subject claimed that he planned to
submit manuscript 1 in November 1992 (one year after it had been rejected and 11 months after
the first false citation appeared), but stated that "this paper appears to remain in limbo in May
1993." The paper was submitted in August 1993. We do not believe the subject reasonably
anticipated, as he claimed, "immediate submission" of these panuscripts when he provided false
statements about their status. We do not find the subject's position that he made
"miscalculat[ions]" about when he would submit the manuscripts credible. We believe that the
subject's anticipatory writings were knowing misrepresentations and misconduct in science.

        The subject states that he "has learned [his] lesson," but continues to insist that his errors
were "miscalculat[ions]," an argument we concluded was neither credible nor supported by the
facts of the case. He states that he "understand[s] that such practices are improper but do[es]
not feel that additional punishment beyond that already administered by [his] institution is
necessary. " We believe that the actions we are recommending are appropriate to protect NSF's
interests. A reprimand including a frnding of misconduct in science is an appropriate mechanism
for NSF to employ in order to state that it does not condone behavior of this kind and that such
behavior is considered a serious deviation from accepted practice within the scientific
community. Our other recommendations are designed to protect NSF by ensuring extra scrutiny
of the subject's proposals before they are submitted to NSF. In this way, NSF peer reviewers
should be able to rely safely on the contents of his proposals so that they can be fairly compared
to other proposals in a funding competition.
